               OFFICE OF
        THE INSPECTOR GENERAL

   SOCIAL SECURITY ADMINISTRATION


  DECEASED BENEFICIARIES WHO HAD DIFFERENT
     DATES OF DEATH ON THE SOCIAL SECURITY
ADMINISTRATION’S NUMIDENT AND PAYMENT RECORDS

         December 2012   A-09-12-11220




    AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:      December 10, 2012                                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Deceased Beneficiaries Who Had Different Dates of Death on the Social Security
           Administration’s Numident and Payment Records (A-09-12-11220)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) had
           adequate controls to resolve different dates of death recorded on the Numident and
           Master Beneficiary (MBR) or Supplemental Security Records (SSR).

           BACKGROUND
           Title II of the Social Security Act (Act) provides monthly benefits to retired and disabled
           workers, including their dependents and survivors. 1 Under Title II, benefits are not
           payable for the month of a beneficiary’s death or later. Title XVI of the Act provides
           payments to financially needy individuals who are aged, blind, or disabled. 2 Under Title
           XVI, payments are not payable the month after death or later. Upon receipt of a death
           report, SSA terminates the decedent’s benefits and initiates recovery for any payments
           issued after death. 3

           To identify and prevent erroneous payments to deceased beneficiaries, 4 SSA’s Death
           Alert, Control and Update System (DACUS) matches reports of death from Federal,
           State, and local agencies against the MBR/SSR. 5 DACUS also processes death



           1
               The Social Security Act §202 et seq., 42 U.S.C. § 402 et seq.
           2
               The Social Security Act § 1611, 42 U.S.C. § 1382.
           3
               SSA, POMS, GN 02230.018 (July 22, 2010) and SSA, POMS, GN 02408.005.C (November 3, 2008).
           4
             We use the term “beneficiary” generically in this report to refer to both Title II beneficiaries and Title XVI
           recipients.
           5
            SSA, POMS, GN 02602.060 (May 13, 2011). The MBR is an electronic record of all Title II
           beneficiaries. The SSR is an electronic record of all Title XVI beneficiaries.
Page 2 - The Commissioner


reports from internal sources (for example, the MBR). 6 SSA records the death
information processed by DACUS on the Numident, an electronic file that contains such
information as the name, date of birth, place of birth, parents’ names, and date of death
(if applicable) for each individual issued a Social Security number (SSN). Finally, SSA
uses death information from the Numident to create a record of death information called
the Death Master File (DMF). 7

For our audit, we identified 10,764 deceased Title II and XVI beneficiaries who had a
date of death on the Numident that differed by at least 1 month from the date of death
on the MBR/SSR. From this population, we selected a random sample of
200 beneficiaries for review.

RESULTS OF REVIEW
SSA needs to improve its controls to ensure it resolves date of death discrepancies
between the Numident and the MBR/SSR. Based on our random sample of
200 deceased beneficiaries, we estimate that

•     9,795 had unresolved date of death discrepancies between the Numident and
      MBR/SSR,

•     1,469 had undetected improper payments of about $6.7 million, and

•     8,326 had an incorrect date of death on the DMF.

We are 90-percent confident the number of deceased beneficiaries with unresolved
date of death discrepancies between the Numident and MBR/SSR ranged from 9,363 to
10,126 (see Appendix C).

Generally, these errors occurred because DACUS did not generate an alert when
beneficiaries had a different date of death on the Numident and MBR/SSR.




6
    SSA, POMS, GN 02602.060 (May 13, 2011).
7
    SSA, POMS, GN 02602.060.B.1 (May 13, 2011).
Page 3 - The Commissioner


Our sample results are summarized below.


                Beneficiaries with a Date of Death Discrepancy
                        Based on a Random Sample of 200 Beneficiaries

                                           18 - Date of Death Discrepancy Resolved (9%)




                                          182 - Date of Death Discrepancy Unresolved (91%)



SSA’s Procedures for Identifying Payments to Deceased Beneficiaries

SSA receives approximately 2.5 million death reports each year. Family members and
funeral homes account for 90 percent of the reports received. The remainder comes
from States and other Federal agencies through data exchanges and reports from
postal authorities and financial institutions.

When SSA receives a death report for a beneficiary, it initiates action to terminate
benefits and recover any payments issued after death. If SSA receives a death report
from a first party (for example, family member or funeral director) or State through the
Electronic Death Registration (EDR) process, it terminates benefits without verification.
SSA verifies death reports received from all other sources. 8 When SSA terminates
benefits, DACUS processes the death termination action. Finally, if the SSN, name,
date of birth, and gender on the death termination action match the Numident, SSA
records the death on the Numident.




8
    SSA, POMS, GN 02602.050.A (January 23, 2012).
Page 4 - The Commissioner


The Act also requires that SSA match State death records against the MBR/SSR. This
match allows SSA to identify and prevent erroneous payments after death. DACUS
receives two types of death records from States: EDR reports where the State verifies
the deceased individual’s SSN before submitting it to SSA and non-EDR reports where
the State does not verify the SSN on the death record before submitting it to SSA. SSA
policy does not require additional verification of EDR reports before it terminates
benefits but does require that non-EDR reports be verified before it terminates benefits. 9

DACUS generates an alert to an SSA field office when it receives a death report from
any source (other than EDR report) when the MBR/SSR indicates the beneficiary is in
current pay status. 10 DACUS does not generate alerts if there is a date of death
discrepancy between the Numident and MBR/SSR. However, SSA is planning a
monthly match to identify date of death discrepancies for resolution.

Date of Death Discrepancies Were Not Resolved

SSA did not resolve date of death discrepancies for 182 (91 percent) of the
200 deceased beneficiaries in our sample. The date of death discrepancies were an
average 19 months11 and ranged from 1 to 438 months. The following table
summarizes the number of months of discrepancy for our sample cases.


            Number of Months                            Number of Beneficiaries

    1 month                                                          102
    2 months                                                         25
    3 months                                                          9
    Between 4 and 6 months                                           10
    Between 7 and 11 months                                           2
    12 or more months                                                34
    Total                                                            182




9
  The Social Security Act §205(r); 42 U.S.C. § 405(r); and SSA, POMS, GN 02602.050
(January 23, 2012).
10
  DACUS also generates an alert when an incoming death report has an earlier date of death than the
date recorded on SSA’s payment records. SSA, POMS, GN 02602.060 B.2 (May 13, 2011).
11
     The mean was 19 months. The median was 1 month.
Page 5 - The Commissioner


Impact of Unresolved Date of Death Discrepancies

The 182 deceased beneficiaries with unresolved date of death discrepancies resulted in
an erroneous date of death on either the Numident or MBR/SSR. 12 To determine the
accuracy of death information in SSA’s records, we obtained death certificates for
39 beneficiaries from the State Bureaus of Vital Records in California, Florida, Illinois,
and South Carolina. 13 Our review confirmed that the date of death on the Numident
was correct for 6 (15 percent) death certificates. The remaining 33 (85 percent) death
certificates confirmed that the date of death on the MBR/SSR was correct. For 8 of the
33 beneficiaries, an EDR report was the source of the Numident date of death. The
following table summarizes the results of our review.

                         Number of
                           Death              Numident Correct                MBR/SSR
         State           Certificates                                          Correct
                                              Number        Percent       Number    Percent
     California                12               2             17            10         83
     Florida                   7                2             29            5          71
     Illinois                  12               0              0            12         100
     South Carolina            8                2             25            6          75
     Total                     39               6             15            33         85

    Numident Date of Death Was Incorrect - Various Federal entities rely on the DMF to
verify the accuracy of reported deaths. This includes four benefit-paying agencies—the
Railroad Retirement Board, Department of Defense, Office of Personnel Management,
and Department of Veterans Affairs. SSA also provides the DMF to the Centers for
Medicare and Medicaid Services, Government Accountability Office, and Internal
Revenue Service. Private industry customers, including banks, hospitals, universities,
and insurance companies, use the DMF to verify identity and prevent fraud. Finally, in
June 2010, the President directed Federal agencies to ensure they thoroughly review
databases with relevant information on eligibility before they release any Federal funds.
At a minimum, agencies shall, before awarding and paying benefits, check the existing
databases to verify eligibility, including SSA’s DMF. 14

Any beneficiary death that is incorrectly recorded on the Numident is also incorrectly
recorded on the DMF. As a result, Federal and private entities who rely solely on the
DMF to determine the accuracy of reported deaths would not know the correct date of
death for these deceased individuals. Based on our review of death certificates for

12
  If the Numident date of death was correct, 149 of the 182 deceased beneficiaries had improper
payments.
13
  We selected these four States because they had the largest number of beneficiaries in our sample
(20 percent).
14
  Presidential Memorandum-Enhancing Payment Accuracy Through a “Do Not Pay List,”
(June 18, 2010).
Page 6 - The Commissioner


39 deceased beneficiaries in our sample, we confirmed that 33 (85 percent)15 of the
39 beneficiaries’ deaths were incorrectly recorded on the Numident. Therefore, the
death information for these 33 beneficiaries was also incorrect on the DMF. The
incorrect death information on the DMF could result in erroneous payments made by
Federal benefit paying agencies that rely on the DMF to detect inaccurately reported
deaths. The incorrect death information will hinder private industry as well as State and
local governments’ ability to identify and prevent identity fraud.

For example, the SSR had a beneficiary’s date of death as January 27, 2008. However,
the Numident had a date of death of May 13, 2008 for the beneficiary. We obtained the
death certificate and found that it agreed with the date of death on the SSR. As a result,
the death information for the deceased beneficiary was incorrect on the Numident and
DMF.

    MBR/SSR Date of Death Was Incorrect – Generally, when SSA receives a death
report, it terminates payments and initiates recovery of any benefits issued after the
beneficiary’s death. 16 An incorrect date of death on the MBR/SSR could result in
undetected improper payments to deceased beneficiaries or their survivors. Our review
of the 39 death certificates found that the MBR/SSR date of death was incorrect for
6 beneficiaries, 17 which resulted in SSA improperly paying the beneficiaries $20,659.

For example, the Numident had a beneficiary’s date of death as March 2008. However,
the date of death on the MBR was May 2008. We obtained the beneficiary’s death
certificate from the State of California Department of Public Health Vital Records and
found that the death certificate confirmed the date of death on the Numident was
correct. As a result, the deceased beneficiary was improperly paid $2,993.

CONCLUSION AND RECOMMENDATIONS
SSA needs to improve controls to ensure it resolves date of death discrepancies
between the Numident and MBR/SSR. Based on our random sample of 200 deceased
beneficiaries, we found that 182 (91 percent) had unresolved date of death
discrepancies between the Numident and MBR/SSR. We also estimate that
1,469 beneficiaries had undetected improper payments of about $6.7 million. Finally,
we estimate that about 8,326 beneficiaries had an incorrect date of death on the DMF
(see Appendix C).


15
  For 21 beneficiaries, the incorrect date of death on the Numident was after the date of death on the
MBR/SSR. For the remaining 12 beneficiaries, the incorrect date of death on the Numident was before
the date of death on the MBR/SSR.
16
     SSA, POMS, GN 02408.005.C (November 3, 2008) and SI 02220.053 (August 12, 2009).
17
  For four beneficiaries, the incorrect date of death on the MBR/SSR was after the date of death on the
Numident and resulted in beneficiaries receiving payments after death totaling $6,060. For the remaining
two beneficiaries, the incorrect date of death on the MBR/SSR was before the date of death on the
Numident and resulted in the beneficiaries being underpaid $14,599.
Page 7 - The Commissioner


We recommend that SSA:

1. Analyze its death processing systems to ensure the date of death is consistent
   between the Numident and MBR/SSR.

2. Determine whether it can efficiently resolve the population of deceased beneficiaries
   identified by our audit.

3. Develop a cost-effective method for identifying and resolving beneficiary records that
   have a different date of death on the Numident and MBR/SSR. This could involve
   periodic matches between the Numident and the MBR/SSR to detect and correct
   discrepant dates of death.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                  Appendix A

Acronyms
Act      Social Security Act
DACUS    Death Alert, Control and Update System
DMF      Death Master File
EDR      Electronic Death Registration
MBR      Master Beneficiary Record
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSN      Social Security Number
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                    Appendix B

Scope and Methodology
From the Social Security Administration’s (SSA) Master Beneficiary (MBR) and
Supplemental Security Records (SSR), we obtained data extracts of deceased
beneficiaries who had a date of death on the Numident that differed from the date of
death on the MBR/SSR. From these extracts, we identified a population of
10,764 deceased beneficiaries who had a date of death on the Numident that differed
from the MBR/SSR date of death by at least 1 month during the period January 1, 2006
through May 18, 2011.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act and SSA’s Program
    Operations Manual System;

•   interviewed SSA employees from the Offices of Earnings, Enumeration, and
    Administrative Systems and Retirement and Survivors Insurance Systems;

•   reviewed queries from SSA’s MBR, SSR, Numident, and Death Alert Tracking
    System, for each sample item; and

•   obtained death certificates for 39 beneficiaries.

We determined the computer-processed data from the Numident, MBR, and SSR were
sufficiently reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the reliability
of the data and achieve our audit objectives.

We performed audit work in Richmond, California, between January and July 2012.
The entity audited was the Office of the Deputy Commissioner for Systems.

We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.
                                                                                          Appendix C

Sampling Methodology and Results
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary (MBR) and Supplemental Security Records (SSR) of 10,764 deceased
beneficiaries who had a date of death from January 1, 2006 through May 18, 2011 that
differed from the Numident date of death by at least 1 month. From this population, we
selected a random sample of 200 beneficiaries for review.

We found that SSA did not resolve date of death discrepancies between the Numident
and the MBR/SSR for 182 of the 200 deceased beneficiaries. If the Numident dates of
death were correct, the improper payments made to these deceased beneficiaries
totaled $830,894. The following tables provide the details of our sample results and
statistical projections.

                              Table C-1 – Population and Sample Size


                            Description                  Number of Beneficiaries
                     Population Size                                             10,764
                     Sample Size                                                   200

         Table C-2 – Beneficiaries with Unresolved Date of Death Discrepancies

                                            Number of                          Improper Payments
            Description                    Beneficiaries             (if Numident Date of Death is Correct)

    Sample Results                                     182 1                                 $830,894
    Point Estimate                                   9,795                                 $44,718,738
    Projection - Lower Limit                         9,363                                 $20,810,980
    Projection - Upper Limit                        10,126                                 $68,626,496
    Note: All statistical projections are at the 90-percent confidence level




1
 If the Numident date of death was correct, 149 of the 182 deceased beneficiaries had improper
payments.


                                                       C-1
Review of Death Certificates - To determine the accuracy of death information on the
Numident and MBR/SSR, we obtained 39 death certificates from our sample of
200 deceased beneficiaries. We found that 6 (15 percent) of the 39 death certificates
agreed with the date of death on the Numident, and 33 (85 percent) agreed with the
date of death on the MBR/SSR. Assuming these percentages are representative of the
population of unresolved date of death discrepancies, we estimate that SSA improperly
paid 1,469 beneficiaries about $6.7 million and 8,326 deceased beneficiaries had an
incorrect date of death on the DMF. The following tables provide the details of our
estimate.

           Table C-3 – Review of State Death Certificates – Sample Results

                       Number of
                                         Numident Correct                MBR/SSR
                         Death
         State                                                            Correct
                       Certificates
                                         Number        Percent     Number           Percent
 California                12              2             17          10               83
 Florida                    7              2             29          5                71
 Illinois                  12              0              0          12              100
 South Carolina             8              2             25          6                75
 Total                     39                 6            15          33             85

    Table C-4 – Beneficiaries with an Incorrect Date of Death on the MBR/SSR
                                                                       Estimated
                            Number of               Percent
     Description                                                      Beneficiaries
                           Beneficiaries           Incorrect      (Number of Beneficiaries x
                          (From Table C-2)     (From Table C-3)
                                                                     Percent Incorrect)
 Point Estimate                 9,795                 15                    1,469

           Table C-5 – Improper Payments Made to Deceased Beneficiaries
                                                                  Estimated Improper
                            Improper                Percent
     Description                                                       Payments
                            Payments               Incorrect        (Improper Payments x
                          (From Table C-2)     (From Table C-3)
                                                                      Percent Incorrect)
    Point Estimate       $44,718,738                  15                $6,707,811

         Table C-6 – Beneficiaries with an Incorrect Date of Death on the DMF
                                                                       Estimated
                            Number of               Percent
     Description                                                      Beneficiaries
                           Beneficiaries           Incorrect      (Number of Beneficiaries x
                          (From Table C-2)     (From Table C-3)
                                                                     Percent Incorrect)
    Point Estimate           9,795                    85                    8,326



                                             C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:       November 19, 2012                                                       Refer To:   S1J-3

 To:        Patrick P. O’Carroll, Jr.
            Inspector General

 From:      Dean S. Landis /s/
            Deputy Chief of Staff

 Subject:   Office of the Inspector General Draft Report, “Deceased Beneficiaries Who Had Different Dates
            of Death on the Social Security Administration’s Numident and Payment Records” (A-09-12-
            11220) —INFORMATION

            Thank you for the opportunity to review the draft report. Please see our attached comments.

            Please let me know if we can be of further assistance. You may direct staff inquiries to
            Amy Thompson at (410) 966-0569.

            Attachment




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“DECEASED BENEFICIARIES WHO HAD DIFFERENT DATES OF DEATH ON THE
SOCIAL SECURITY ADMINISTRATION’S NUMIDENT AND PAYMENT RECORDS”
(A-09-12-11220)


General Comments

Maintaining accurate death information is an agency priority. In the following paragraphs, we
summarize some of our more recent efforts to improve the consistency of death information in
our records.

We continue to work with States to build a streamlined death registration process, known as
Electronic Death Registration (EDR). EDR replaces the more cumbersome and labor-intensive
process through which we currently receive death information from some States. EDR has
expanded on a State-by-State basis since 2002, and currently 32 States, the City of New York,
and the District of Columbia participate in this initiative. If all States participated in EDR, death
reporting would be virtually error-free. However, the nationwide implementation of EDR is
contingent on congressional funding of State grants issued by the Department of Health and
Human Services.

In 2012, we launched two important claims processing initiatives (the Claims Enumeration Mini-
Path and Autoclear project and the Internet Claim/CLIENT Release 5) to ensure greater
consistency between the name and Social Security number (SSN) information on the Master
Beneficiary Record (MBR), the Supplemental Security Record (SSR), and the Numident. These
initiatives will significantly improve the integrity of, and consistency between, the death data on
the MBR, SSR, and the Numident for current beneficiaries.

In fiscal year (FY) 2013, we will revise our Death Alert Control and Update System (DACUS),
adding enhancements that will ensure we correctly post death information on our master records
and efficiently correct discrepancies in death data between our master records.

Recommendation 1

Analyze its death processing systems to ensure the date of death is consistent between the
Numident and MBR/SSR.

Response

We agree. This effort is now underway.




                                                 D-2
Recommendation 2

Determine whether it can efficiently resolve the population of deceased beneficiaries identified
by our audit.

Response

We agree. We will take action on the beneficiaries identified by this audit who may have
undetected improper payments resulting from a date of death discrepancy. Currently, resources
are not available for us to take action on non-payment related discrepancies. However, we
expect to use the results of our efforts described in Recommendation 1 to determine if we can
efficiently address the remaining cases from the audit population.

Recommendation 3

Develop a cost-effective method for identifying and resolving beneficiary records that have a
different date of death on the Numident and MBR/SSR. This could involve periodic matches
between the Numident and the MBR/SSR to detect and correct discrepant dates of death.

Response

We agree.




                                               D-3
                                                                         Appendix E

Agency Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Regina Finley, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-09-12-11220.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
